CASE NO. 20-7326

IN THE SUPREME COURT OF THE UNITED STATES
October 2020 Term

TYRONE VALENTINE

Petitioner,
v

UNITED STATES OF AMERICA
Eespondent.

On Petition for a Writ of Certiorari
To the Eighth Circuit Court of Appeals

PETITION FOR REHEARING

Kevin C. Curan
Assistant Federal Public Defender
1010 Market, Suite 200
Saint Louis, MO 63101
(sr+) z4r-L2bl
Fax: (314) 42t-4r77

TABLE OF CONTENTS
Table of Authoritres

3

Statutory Provisions

4

GROUNDS FOR REHEARING

6

1. This Court's decisionin Borden v. United States has established that crimes
based on reckless conduct do not satisfy the ACCA definition of a violent felony
that has as an element "the use" of force targeted against the person of an
intended victim. This is a controlling decision under SUP. CT R 44.2 waruanting
reconsideration of Petitioner's claim that his Missouri assault convictions do not
require the use of force "targeted" at the person of another and invalidate his
enhanced mandatory 15 year prison term.
6

Conclusion

10

Certificate of Counsel

2

TABLE OF AUTHORITIES
Supreme Court Cases

_,

Borden v. United States,593 U.S.

2021WL 2367312 (June 10, 2021) . .

Buck v. Davis,137 S. Ct.759 QOtl) . . .
Leocal

v.

Ashcroft,543 U.S.

I

passlm
9, 10

(2004)

I

MilIer-EI v. Cockrell,527 U.S. 322,337 (ZOOS) . . .

10

Federal Statutes
18 U.S.C. $16(a) (zor8) . .

.

4,7

18 U.S.C. ge2a(e) (zora) .

.

4,6,7

Supreme Court Rule

4,6,'.I

SUP. CT R. 44.2

State Court Cases

State v. Gonzales,652 S.W.2d 791 (Mo. Ct. App. 1983) . .

8,9

State v. Yardley,628 S.W.2d 703 (ttto. Ct. App. 1982) . . .

8

State Statutes
Mo. Rev. Stat. 5556.061(z) (rgzs)

...5,8

.

.5,8

Mo. Rev. Stat. 5565.050 (rgz8) . . .
Mo. Rev. Stat. 5565.050 (Supp. 1984).

5,8

J

RY PRO

o

18 U.S.C. $16, "Crime of Violence defined," provides

The term "crime of violencsrr 1nss1s-

(d

an offense that has as an element the use, attempted use, or threatened
use ofphysical force against the person or property ofanother, or

(b) any other offense that is a felony and that, by its nature, involves a
substantial risk that physical force against the person or property of
another may be used in the course of committing the offense.

ls

U.S. C. $sza(e)(2)(B), provides:

(g) the term "violent felony" means any crime punishable by imprisonment
for a term exceeding one year, or any act of juvenile delinquency involving the use
or carrying of a firearm, knife, or destructive device that would be punishable by
imprisonment for such term if committed by an adult, that-

(t) has as an element the

use, attempted use, or threatened use of physical
force against the person ofanother, or

(Z) is burglary, arson, or extortion, involves use of explosives, or otherwise
involves conduct that presents a serious potential risk of physical injury to

another[.]
28 U.S.C. $2253(c)(1)(B), provides (as pertinent to this case): Unless a circuit justice or
judge issues a certificate of appealability, an appeal may not be taken to the court of
appeals from -(B) the final order in a proceeding under [ZS U.S.C] section 2255.
SUP. CT R. 44.2provides, in pertinent part, "Any petition for the rehearing of an order
denying a petition for a writ of certiorari or extraordinary writ shall be filed within 25
days after the date of the order of denial . . ., but its grounds shallbe limited to
intervening circumstances of a substantial or controlling effect or to other substantial
grounds not previously presented[.]"

4

Missouri State Statutes
Mo. Rev. Stat.

S

565.050.1 (1978) provided

1. A person commits the crime of assault in the first

(f) He knowingly

degree if:

causes serious physical injury to another personi or

(Z) He attempts to kill or to cause serious physical injury to another personi or
(3) Under circumstances manifesting extreme indifference to the value of human
life he recklessly engaged in conduct which creates a grave risk of death to
another person and thereby causes serious physical injury to another person."

Mo. Rev. Stat. 5565.050.2 (I97$ provided that the offense was a Class B Felony "unless
committed by means of a deadly weapon or dangerous instrument in which case it is a
class A felony."
Mo. Rev. Stat. 5556.061(Z) (fgZg), defined "dangerous instrument" as "any instrument,
article or substance, which, under the circumstances in which it is used, is readily capable
of causing death or serious physical injury."
Mo. Rev. Stat $565.050 (Supp. l9S4)(effective Oct. 1, 1984), amended Mo. Rev. Stat.
565.050 to make the offense a Class B felony, "unless in the course thereof the actor
inflicts serious physical injury on the victim in which case it is a class A felony."

5

ARGUMENT FOR REHEARING
This Court's ruling three weeks ago

in Christopher J. Borden v. United

States, No.

WL 2367312 (June lO,202I), constitutes an intervening

19'5410, 593 U.S.

-,202I

circumstance with controlling effect on the claim Mr. Valentine raised in his Petition for

Certiorari and warrants rehearing within the terms of SUP. CT R. 44.2.
Mr. Valentine's Petition for a Writ of Certiorari asked this Court to review the
denial of a certifi.cate of appealability pursuant to 28 U.S.C. $ 2253(c)(1)(B) on his
contention that the Missouri assault statutes under which he was convicted were satisfi.ed
by reckless conduct, including drunk driving resulting in injury to another, and could not
satisfy the definition of "violent felony" in the Armed Career Criminal Act ('ACCA"), 18
U.S.C. $SZ4(eX2)(B)(il. Petition for Certiorari ("Cert. Pet.") at 12'17. He raised the claim

in

a timely petition to vacate his 180'month sentence pursuant to 28 U.S.C. S 2255,

arguing that the ACCA was improperly applied to raise his sentence from a maximum of
10 years under 18 U.S.C. S g24(il(2) to a minimum of 15 years based on three Missouri

assault convictions from the 1980s. The District Court denied the claim and denied a

certificate of appealability.
Petitioner sought a certificate of appealability in the Eighth Circuit, on the basis

that reasonable jurists could disagree on whether the Missouri assault statute underlying
his Missouri assault convictions required as an element "the use of physical force against
the person of another,"

within the meaning of Section gZ+(dQ)(BXi) (emphasis addeO. He

cited authoritative Missouri state court decisions holding that the statute was satisfied by
reckless conduct such as reckless drunk driving causing injury to another.

6

This Court's intervening decision in Borden squarely established that crimes
satisfied by reckless or culpably negligent conduct do not constitute the "use" of physical
force against the person of another. 2O2l WL 2367312 at

*4. The Court explained that

recklessness and culpable negligence "are less culpable states because they . . . involve

insufficient concern with a risk of injury," whereas the ACCA definition requires a
targeted use of force "against the person of another." fd. The Court relied heavily on its
precedent in Leoca| v. Ashcroft,543 U.S.

I

(2004), which held that a conviction for driving

under the influence amounted to merely negligent conduct that did not satisfy the nearly

identical "element of force" definition for "crimes of violence" in 13 U.S.C. $16(a). Borden,
at *7-8, *9'10.

Although the parties in Leoca./focused on the active employment of force based on
Congress's choice of the word "use" in the statute, this Court thought that focus to be too

narrow and that the "critical aspect" of Section 16(a) was its demand that the perpetrator
use physical force specifically "against the person or property of

another."

543 U.S. at g.

"When read against the words 'use of force,' the 'against' phrase-the defi.nition's 'critical

aspect'-(suggests a higher degree of intent' than (at least) negligence." Borden, at

*7

,

quoting Leocal,543 U.S. at 9. In Leocal, the Court reserved the question of whether the
same reasoning applied to the "elements" definition in ACCA. Id., at 13. In Borden, this

Court confirmed that the same reasoning excluded reckless and negligent crimes as

violent felonies under the ACCA's "use . . . of physical force against the person of another"
definition in Section gz+(e)(2)(B)(il. 2ozI WL 286T312 at*4, *I2.

7

The

rulingin Bordenconstitutes

a controlling intervening decision on the issue

Petitioner Valentine raised in his Petition for Certiorari and warrants rehearing under
SUP. CT R. 44.2. The Borden decision adopted the very reasoning Petitioner argued in his

motion for a certificate of appealability in the United States Court of Appeals for the

Eighth Circuit and in his petition for certiorari in this Court. Cert. Pet. at 15. Petitioner
argued that Missouri convictions for assault in the first degree rested upon statutory

definitions that indivisibly encompassed driving under the influence of alcohol resulting in
serious physical injury to another. Cert. Pet. at 13'14. See State v. Gonzales,652 S.W.2d

79I, 720 (Uo. Ct. App. 1983). tn 1982 and continuing until October

l,

1984, Missouri law

stated "[al person commits the crime of assault in the first degree if:

(t)
Q)
(g)

He knowingly causes serious physical injury to another personi or
He attempts to kill or to cause serious physical injury to another personi or
Under circumstances manifesting extreme indifference to the value of human
life he recklessly engages in conduct which creates a grave risk of death to
another person and thereby causes serious physical injury to another person."

Mo. Rev. Stat. 5565.050.1 (1978). Subsection 565.050.2 provided that the offense was a
Class B felony "unless committed by means of a deadly weapon or dangerous instrument

in which case it is a class A felony." The term "dangerous instrument" was statutorily
defined as "any instrument, article or substance, which, under the circumstances in which

it

is used, is readily capable of causing death or other serious physical injury." Mo. Rev.

Stat. 5556.061(Z) (fgZS). Missouri courts interpreted that definition to include
automobiles, see State v. Yardley,628 S.W.zd 703, 705 (Mo. Ct. App. 1982). Effective
October 1, 1984, the legislature amended $565.050 to make the offense a Class B felony,

8

"unless in the course thereof the actor inflicts serious physical injury on the victim in

which case it is a class A felony." Mo. Rev. Stat. 5565.050 (Supp. 1984).

Missouri case law interpreting the 1978 statute's language showed that recklessly
driving a vehicle in circumstances manifesting extreme indifference to human life easily
supported conviction for assault, even if the state charged the crime as an assault under

the statutory alternative means that the accused "attempted to kill or cause serious
physical injury to another person[.J". Gonzales,652 S.W.z d at 723 (finding sufficient
evidence to convict where the conduct approximated a showing of reckless behavior

manifesting extreme indifference," despite the fact the original charge alleged he
attempted to kill or cause serious physical injury

In light of Borden, Mr. Valentine's petition for a certificate of appealability easily
satisfied the threshold to "show[ that Jurists of reason could disagree with the district
court's resolution of his constitutional claims or that jurists could conclude the issues
presented are adequate to deserve encouragement to proceed further."" See Buck v. Dauis,
137 S. Ct.759,773 (20L7), cited in the Petition for Certiorari at13. Indeed, the opinion of

the Court in Borden observed that "[m]any convictions for reckless crimes result from
unsafe driving," and cited a variety of state assault statutes satisfied by reckless conduct.
2O2I WL 2356312

at*I0.

The Missouri Supreme Court's decision

in Gonzalesprovides salient

evidence that

the assault statute upon which Mr. Valentine was convicted stands within the class of
cases Borden invalidated as ACCA predicate offenses. The issue at the certificate of

appealability stage does not authorize a "full consideration of the factual or legal bases

9

adduced in support of the claims." Buck, 137 S. Ct. at 773, quoting MiIIeTEI v. Cockrell,
527 U.S. 322,337 (ZOOS). "[A] claim can be debatable even though every jurist of reason

might agree, after the COA has been granted and the case has received full consideration,
that petitioner will not prevail." Id. at 774, quoting MiIIer-EI, 527 U.S. at 338. The
Missouri case law demonstrating that reckless driving satisfies the assault statute
underlying Mr. Valentine's convictions confirms that his claim is significant enough to
proceed to further consideration in the Eighth Circuit in light of Borden.

CONCLUSION
WHEREFORE, petitioner respectfully prays that this Court reconsider his Petition

for a Writ of Certiorari to the Eighth Circuit Court of Appeals and grant the petition to
remand the case for reconsideration in light of Borden v. United States.
Res

su

e

Kevin C. Curran
Assistant Federal Public Defender
1010 Market, Suite 200
Saint Louis, MO 63101
(sra) 24r-L255
Fax: (314) +zt'+tzz

l0

Certificate of Counsel of Record

Undersigned counsel of record hereby certifies that this petition is submitted in good faith to
raise intervening substantial circumstances of the type specified in Supreme Court Rule 44.2, and is not
presented for delay.

Respectfully submitted,

Kevin C. Curran
Assistant Federal Public Defender
1010 Market, Suite 200
Saint Louis, MO 63101

(3r4) 24r-r2ss
Fax: (314) 421-4177

